LESBIAN GAY BISEXUAL
TRANSGENDER
& HIV PROJECT
JAMES D. ESSEKS
DIRECTOR

July 30, 2020
Via Electronic Filing and E-mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
RE:

Parents for Privacy v. Barr (No. 20-62)

Dear Mr. Harris:
Respondents Basic Rights Oregon and Dallas School
District No. 2 write to request a 60-day extension of
Respondents’ time to file a brief in opposition to the
petition for writ of certiorari from August 24, 2020 to
October 23, 2020.
Respondents seek this extension in light of counsel’s
competing personal and professional obligations. First
and foremost, the current public health emergency
related to COVID-19 has forced the closure of each of
the offices where Respondents’ counsel normally work.
The public health emergency has also forced closures
of schools, camps, and child care facilities, which
requires Respondents’ counsel to care for minor
children during this time.
Meanwhile, in this context of reduced capacity, counsel
for Respondents remain committed to other upcoming
filings. Counsel for Respondent Basic Rights Oregon
are currently preparing the Brief for Respondents
Support Center for Child Advocates and Philadelphia
Family Pride in Fulton v. City of Philadelphia (No. 19203), currently due to this Court on August 13, 2020.
Previously scheduled personal and professional
commitments, as well as new challenges resulting
from the COVID-19 public health emergency and
resulting disruptions to professional and personal life
during the initial 30-day response period would make
it difficult for counsel to prepare the response in this
case.

July 30, 2020
Page 2
The petition for a writ of certiorari was submitted on
July 10, 2020 and docketed on July 23, 2020.
Petitioners through counsel have indicated they do not
object to this request.
Thank you for your attention to this matter.
Respectfully,
Z Gabriel Arkles
Counsel for Respondent Basic Rights Oregon
cc:

Peter Mersereau, Counsel for Respondent
Dallas School District No. 2
Mary E. McAllister, Counsel for Petitioners
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

